OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID’S
UNLIQUIDATED OBLIGATIONS
FOR SELECTED EXPIRED
AWARDS AT THE BUREAU FOR
GLOBAL HEALTH


AUDIT REPORT NO. 9-000-12-001-P
JANUARY 9, 2012



WASHINGTON, D.C.
Office of Inspector General




January 9, 2012


MEMORANDUM

TO:                  GH/SPBO, Acting Office Director, Michael Zeilinger
                     M/OAA, Chief Acquisition Officer and Director, Aman S. Djahanbani
                     M/CFO, Chief Financial Officer, David Ostermeyer

FROM:                IG/A/PA, Director, Steven Ramonas /s/

SUBJECT:             Audit of USAID’s Unliquidated Obligations for Selected Expired Awards at the
                     Bureau for Global Health (Report No. 9-000-12-001-P)

This memorandum transmits our final report on the subject audit. We considered your
comments on the draft report in finalizing the report and have included the Office of Acquisition
and Assistance and Chief Financial Officer’s consolidated response in Appendix II.

The report contains three recommendations to help strengthen USAID’s management of expired
awards with unliquidated obligations. On the basis of the information provided by management
in response to the audit report, we determined that management decisions have been reached
on Recommendations 1 and 2. However, a management decision is still pending on
Recommendation 3 because the CFO’s office needs to do further study on the broad issue of
section 1311 review policy for obligations marked for closeout. Determination of final action on
Recommendations 1 and 2 will be made by the Audit Performance and Compliance Division on
completion of the planned corrective actions.

I appreciate the cooperation and courtesy extended to the staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
CONTENTS
Summary of Results ..................................................................................................... 1

Audit Findings ............................................................................................................... 4

     Unliquidated Obligations Were Valid and Properly Valued,
     With Some Exceptions .............................................................................................. 4

     Global Health Bureau Strengthened Its Review Process for
     Expired Awards, but More Can Be Done Agency-wide .............................................. 6

Evaluation of Management Comments........................................................................ 8

Appendix I – Scope and Methodology ......................................................................... 9

Appendix II – Management Comments ...................................................................... 11



 Abbreviations

 The following abbreviations appear in this report:

 ADS                  Automated Directives System
 AOTR                 agreement officer’s technical representative
 CFO                  Chief Financial Officer
 COTR                 contracting officer’s technical representative
 OAA                  Office of Acquisition and Assistance
 OIG                  Office of Inspector General
SUMMARY OF RESULTS
USAID’s Global Health Bureau supports field health programs, advances research and
innovation in areas relevant to overall Agency health objectives, and transfers new technologies
to the field through contracts, grants, cooperative agreements, and other instruments with
implementing partners and other donors. In fiscal year 2010, the Global Health Bureau
obligated $2.1 billion in program funds to support activities such as HIV/AIDS and malaria
prevention, family planning, and reproductive health care.

The Global Health Bureau manages most of these activities through teams from the bureau’s
three technical offices: Office of Population and Reproductive Health; Office of HIV/AIDS; and
Office of Health, Infectious Diseases and Nutrition. Other activities are managed by the Office
of Professional Development and Management; Office of Strategic Planning, Budgeting and
Operations; and Office of Regional and Country Support on behalf of the bureau as a whole (as
shown below).

                   Organizational Chart for USAID’s Global Health Bureau

                                                Assistant
                                         Administrator/Deputy
                                         Assistant Administrator

             Office of Strategic,                                            Office of Professional
            Planning, Budgeting                                               Development and
              and Operations                                                     Management
                                                                                   Support




              Office of                                  Office of Health,             Office of
            Population &            Office of               Infectious                Regional &
            Reproductive            HIV/AIDS                Diseases &                 Country
               Health                                        Nutrition                 Support


USAID’s Office of Acquisition and Assistance (OAA) is responsible for awarding, managing, and
closing out the Agency’s contracts, grants, and cooperative agreements. The Global Health
Bureau employs contracting officer’s technical representatives (COTRs) and agreement officer’s
technical representatives (AOTRs) who participate in the contracting process and management
of the award instruments.

USAID’s Automated Directives System (ADS) 621 provides policy guidance and required
procedures to ensure that USAID’s obligations are valid and managed in accordance with sound
financial management principles. This assurance is made through the Agency’s annual review of
unexpended obligated balances, also referred to as a section 1311 review (based on the




                                                                                                      1
Supplemental Appropriations Act of 19551 as codified in 31 U.S.C. 1108, 1501, and 1502). The
section 1311 review is conducted at least annually to determine the amount of unexpended
obligations remaining for each funding line item and to identify idle funds that can be
reprogrammed for other valid purposes before the end of the fiscal year.

ADS 621.3.17 states:

        Unexpended obligated balances must be monitored to ensure that the level of
        funding is consistent with Agency forward funding guidelines and that balances
        are deobligated when no longer needed for the purposes for which they were
        initially obligated.   A careful review of unexpended obligated balances
        strengthens the Agency’s internal controls by deleting balances from the
        accounting system that are no longer required for future payments. This helps to
        identify funds that can be reprogrammed for current requirements. In addition,
        the review supports the Agency’s formal year-end certification to the Department
        of Treasury.

The Office of Inspector General (OIG) conducted this audit to determine whether USAID’s Global
Health Bureau ensured that unliquidated obligations for a selected sample of expired awards were
legally valid and properly valued.

The results of our audit tests for validity and valuation were generally positive. The Global Health
Bureau had sufficient controls in place for managing expired awards and conducting section 1311
reviews. During the past year, the bureau took steps to strengthen its review of expired awards
with unliquidated obligation balances by updating and streamlining its financial review process.
However, documentation was not available for 2 of 24 expired awards in our sample.
Consequently, a determination of validity and valuation could not be made for those items. In
addition, we discovered a significant backlog of awards with unexpended obligation balances
that cannot be deobligated until OAA closes out the awards. Because of the significance to
USAID, OIG has initiated a separate audit of this issue.

Although ADS 621.3.19 requires assistant administrators, independent office directors and
mission directors to annually certify whether unexpended obligated balances are necessary for
both ongoing and expired programs, Global Health Bureau financial staff members stated that it
was office practice not to perform the section 1311 reviews after awards expired and were sent
to OAA for closeout. Staff members in the Office of the Chief Financial Officer (CFO) affirmed
this practice and reported that it was understood in the Agency that expired obligations marked
for closeout did not require any further section 1311 reviews and that personnel in the Agency
knew of this informal policy through communication such as e-mails and word of mouth. While
we agree that this practice is reasonable, it should be formalized in the Agency’s ADS and
supplemental guidance materials.

The audit disclosed the following issues:

    Unliquidated obligations were valid and properly valued, with some exceptions (page 4).

1
  We note an error in the first sentence of ADS 621.3.17, which incorrectly refers to section 1311 of the
Federal Managers Financial Integrity Act. There is no such section in that act, and the U.S. Department
of State Foreign Affairs Manual [4 FAM 081.3 (2)] identifies section 1311 as part of the Supplemental
Appropriations Act of 1955, as codified by 31 U.S.C. 1501 and 1502.



                                                                                                       2
   Global Health Bureau strengthened its review process for expired awards, but more can be
   done Agency-wide (page 6).

The report recommends that:

1. OAA determine whether the original obligations to the Boston University School of Public
   Health totaling $87,250 and to RTI International totaling $225,751 were valid, and close out
   the awards (page 6).

2. OAA deobligate the unliquidated obligation balances for the Boston University School of
   Public Health totaling $28,389 and for RTI International totaling $23,247 (page 6).

3. CFO formalize, in ADS and related guidance, as necessary, the section 1311 review policy
   for obligations marked for closeout (page 7).

Detailed findings follow. Our evaluation of management comments appear on page 8, and the
consolidated management response is included in Appendix II. The audit scope and
methodology are described in Appendix I.




                                                                                             3
AUDIT FINDINGS
Unliquidated Obligations Were
Valid and Properly Valued, With
Some Exceptions
USAID’s ADS Chapter 621 provides policy guidance for the annual review and certification of
unexpended obligation balances. ADS 621.3.2 states that a valid obligation is:

1. Supported by written evidence.
2. For a purpose authorized by law.
3. Executed by an individual who is authorized to incur an obligation.
4. Required to fill a bona fide need during the period of availability of the appropriation or fund
   used.
5. Executed during the period of availability of the funds. The validity of an obligation is
   determined at the time of its execution if not expired or excessive.

For validity and valuation testing of the Global Health Bureau’s unliquidated obligations, we
selected a judgmental sample of 30 obligations that were associated with 24 separate awards that
had been expired for at least 3 years and had remaining unexpended obligation balances. The
amount of unexpended obligation balances for the sample tested totaled almost $4.5 million
(Table 1). Except for two awards that could not be tested because of missing documentation,
awards in our sample met the five criteria outlined above for validity.

        Table 1. Audit Sample: Unliquidated Obligations as of September 30, 2010
              FY Award
                               Expired Awards        Obligations           Total ($)
               Expired
                1992                  1*                   2                28,389
                1995                  1*                   2                23,247
                2000                   1                   1                 2,805
                2001                   2                   3               944,434
                2002                   1                   1                 5,234
                2003                   1                   1                 2,737
                2004                   2                   2             2,886,978
                2005                   2                   2                60,776
                2006                   6                   6               208,760
                2007                   7                  10               325,799
                Total                 24                  30             4,489,159
         * Missing documentation.




                                                                                                 4
Office of Management and Budget Circular A–123 defines management’s responsibility for
designing internal controls over financial reporting in federal agencies to provide, among other
things, reasonable assurance that all assets and liabilities have been properly valued, and
where applicable, all costs have been properly allocated.

Therefore, we also reviewed obligation balances for reasonableness and proper valuation. For
the 22 expired awards with documentation that we could review, obligation balances were
correctly calculated and reasonable for final closeout purposes. Of course, we could neither
test nor make conclusions about the obligations under the two sampled awards with missing
documentation, and these obligations were deemed invalid (Table 2).

          Table 2. Obligations for Expired Awards With No Documentary Support
                               Award End      Original Obligation   Unliquidated Obligation
            Awardee
                                   Date           Amount ($)              Balance ($)
     Boston University          9/29/1992             87,250                28,389
     School of Public Health
     RTI International          6/19/1995           225,751                 23,247
               Total                                313,001                 51,636

The United States Code states at 31 U.S.C. 1501 (a) that:

       (a) An amount shall be recorded as an obligation of the United States
           Government only when supported by documentary evidence of:

      (1) a binding agreement between an agency and another person (including an
agency) that is:

               (A) in writing, in a way and form, and for a purpose authorized by law; and

               (B) executed before the end of the period of availability for obligation of
               the appropriation or fund used for specific goods to be delivered, real
               property to be bought or leased, or work or service to be provided.

In response to our requests for the supporting documentation for the above-referenced awards,
OAA and the USAID Records Liaison Officer informed us that the documentation could not be
located. As Table 2 shows, these awards expired 19 and 16 years ago, respectively, but had
yet to be closed out by OAA and still had unexpended obligation balances.

The actual cause for the missing documents cannot be determined, but files for activities that
ended well over a decade ago easily could have been misplaced, sent to the archives, or
destroyed. Additionally, not all award data migrated accurately when USAID changed to a new
financial system, and these two awards lacked contract number data in the format required by
the new system, making it even more difficult for the Agency to find the records to support the
obligations. Nevertheless, as stated in 31 U.S.C. 1501(a), an obligation can be valid only when
supported by evidentiary documentation.

This issue illustrates the delays in the closeout process and deobligation of unliquidated
obligations from expired awards, leading to a backlog of awards awaiting closeout totaling
approximately $252 million in 2010, according to the Agency. Even the relatively small sample
the audit reviewed had unliquidated balances totaling nearly $4.5 million that needed to be



                                                                                              5
deobligated and the associated awards closed out. Two of the awards in our sample expired as
far back as 1992 (19 years) and 1995 (16 years), and were still pending final closeout and
deobligation. To address this issue, OIG has initiated an audit to review the Agency’s large
backlog of awards awaiting final closeout and deobligation.

In the meantime, we make the following recommendations to address the two sampled awards
with missing documentation.

   Recommendation 1. We recommend that the Office of Acquisition and Assistance
   determine whether the original obligations to the Boston University School of Public
   Health totaling $87,250 and to RTI International totaling $225,751 were valid, and close
   out the awards.

   Recommendation 2. We recommend that the Office of Acquisition and Assistance
   deobligate the unliquidated obligation balances for the Boston University School of
   Public Health totaling $28,389 and for RTI International totaling $23,247.

Global Health Bureau Strengthened
Its Review Process for Expired Awards,
but More Can Be Done Agency-wide
USAID’s ADS 621.3.19 states obligation managers must annually review all unexpended
obligated balances. Also, ADS 621.3.17 states that obligation managers must continuously
review the status of obligated funds. They must request deobligations when:

        A determination is made that the funds are no longer needed to accomplish activity
        objectives and the amount to be recovered exceeds a threshold of the $100,000 dollar
        amount established by the Bureau for Management, Office of Acquisition and
        Assistance, or

        The funding exceeds forward funding guidelines without proper authorization.

Initially, senior management in the Global Health Bureau had concerns that the section 1311
review process was not being sufficiently supervised because, at the time the audit began in
April 2010, a senior financial controller had not been assigned to the bureau to oversee the
review process. However, the bureau addressed the gap by hiring a retired USAID controller as
a senior financial manager under a U.S. personal services contract.

The Global Health Bureau has, in the past, been assigned a Foreign Service officer in the
financial controller position. During the audit, a controller was temporarily assigned to the
bureau. The bureau continued its efforts to fill the vacant controller position by advertising it on
the bidding list for consideration by Foreign Service financial staff members. These efforts
should provide sufficient financial supervision of the section 1311 review process by the Global
Health Bureau staff.

Additionally, the Global Health Bureau strengthened its review of expired awards with
unliquidated obligation balances by updating and streamlining its financial review processes.
According to bureau officials, bureau personnel perform periodic reviews of unliquidated
balances during both the accrual process and the annual portfolio reviews. To streamline these



                                                                                                  6
reviews, the bureau set materiality thresholds to reduce the number of items requiring review
without materially increasing the risk of not deobligating unneeded funds.

At the end of fiscal year 2010, the Global Health Bureau added an extra step to the review
process by running reports for obligations that had expired but were not marked for closeout.
As a result, awards that otherwise might have been overlooked are reviewed again to determine
their need for being marked for closeout; that can be done with the next quarterly
accrual/unliquidated balance review.

Although ADS 621.3.19 requires assistant administrators, independent office directors and
mission directors to annually certify whether unexpended obligated balances are necessary for
both ongoing and expired programs, Global Health Bureau financial staff members stated that it
was office practice not to perform the section 1311 reviews after awards expired and were sent
to OAA for closeout. Staff members in the CFO’s office affirmed this practice and reported that
it was understood in the Agency that expired obligations marked for closeout did not require any
further section 1311 reviews. Further, CFO staff members said that personnel in the Agency
knew of this informal policy through communication such as e-mails and word of mouth. They
further acknowledged and we agree that the practice should be formalized in ADS and in
supplemental guidance.

Generally, the Global Health Bureau had sufficient controls in place for managing expired
awards and conducting section 1311 reviews to identify residual funds that are no longer
needed, including the reasonable informal practices described above. However, informal
financial practices are not a prudent method of conducting funds management and oversight.
Practices that are not defined and formalized as a written policy are open to interpretation and
inconsistent application, increasing the risk that USAID funds will not be used efficiently and
effectively. Therefore, we make the following recommendation.

   Recommendation 3. We recommend that the Office of the Chief Financial Officer
   formalize, in USAID’s Automated Directives System and related guidance, as necessary,
   the section 1311 review policy for obligations marked for closeout.




                                                                                              7
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, OAA agreed with Recommendations 1 and 2, and
management decisions have been reached on both. However, the CFO’s decision is still
pending on Recommendation 3. Determination of final action on Recommendations 1 and 2 will
be made by the Audit Performance and Compliance Division on completion of planned
corrective actions. A detailed evaluation of management comments follows.

OAA agreed with Recommendation 1 and stated that it will close the two awards but will be
unable to prove definitively the validity of the obligations because OAA was not able to locate
any physical or electronic records of the award documents. However, OAA believes that
internal controls in place at the time ensured that only warranted individuals could make
obligations under a contract; thus, it is reasonable to assume that these obligations were valid.
Closure of the two awards is expected to be completed by January 30, 2012. As a result, a
management decision has been reached on Recommendation 1.

OAA agreed with Recommendation 2 and stated that it will deobligate the unliquidated
obligation balances for Boston University School of Public Health totaling $28,389 and for RTI
International totaling $23,247. The deobligation is expected to be completed by January 25,
2012. As a result, a management decision has been reached on Recommendation 2.

The CFO will prepare a formal decision on Recommendation 3 by January 30, 2012. The CFO
stated that additional time is needed to study the broad issue of section 1311 review policy for
obligations marked for closeout and how it will be addressed. Therefore, a management
decision has not been reached on Recommendation 3.




                                                                                               8
                                                                                             Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this performance audit in accordance with generally accepted government
auditing standards.2 Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The objective of this audit was to determine whether the Global Health Bureau ensured that
unliquidated obligations for a selected sample of expired awards were legally valid and properly
valued.

We conducted our audit at USAID/Washington Global Health Bureau, from April 26, 2010,
through September 26, 2011.3 The audit focused on selected expired awards within three
program offices in the Global Health Bureau: Office of Health, Infectious Diseases and
Nutrition; Office of Population and Reproductive Health; and Office of HIV/AIDS. Because the
life cycle of an award funded by USAID involves a number of offices in the Agency, the scope of
the audit also included the CFO’s office and OAA.

In planning and performing this audit, the audit team obtained an understanding of and
assessed the Global Health Bureau’s internal controls related to unliquidated obligations. Audit
testing was conducted to assess how effective the bureau’s internal controls were in ensuring
the legal validity and proper valuation of the obligations and in determining whether expired
unliquidated balances were still needed. We also obtained an understanding of the internal
controls related to the identification, prioritization, and closeout of contracts, grants, and
cooperative agreements in a timely manner, as well as completing deobligations and closeout of
expired awards.

Methodology
At our request, the Global Health Bureau provided a list of expired awards with unliquidated
obligations managed by three bureau program offices: Office of Health, Infectious Diseases
and Nutrition; Office of Population and Reproductive Health; and Office of HIV/AIDS. From a
population of 355 awards with unliquidated obligation balances of $22 million, auditors selected
a judgmental sample of 24 awards with 30 obligations valued at $4,489,159 for testing of validity
and valuation. No awards were selected as potential replacements.

The audit team performed tests of validity to determine whether each obligation in the sample
met the following characteristics of a valid obligation as set forth in ADS 621.3.2:

1. Be supported by written evidence.
2. Be for a purpose authorized by law.

2
 Government Accountability Office, Government Auditing Standards, July 2007 Revision, GA0-07-731G.
3
 The time to complete this audit was significantly extended due to changes in assigned staff and focus on
expired acquisition and assistance awards in the summer and fall of 2010.


                                                                                                       9
                                                                                       Appendix I



3. Be executed by an individual who is authorized to incur an obligation.
4. Be required to fill a bona fide need during the period of availability of the appropriation or
   fund used.
5. Be executed during the period of availability of the funds. The validity of an obligation is
   determined at the time of its execution if not expired or excessive.

Tests of valuation focused primarily on soliciting feedback from each award’s COTR or AOTR to
determine why the expired unliquidated obligations have not been deobligated and whether the
expired balances were still needed. Further, the team reviewed award modifications, contract
file documents, and Phoenix reports. The tests focused on expired award balances from the
sample to determine whether these balances were comparable to the award files and Phoenix
reports.

We met with USAID personnel from the Global Health Bureau, OAA, and the CFO’s office to
discuss the status of the expired unliquidated obligations and reasons for delays in finalizing the
closeout and deobligation process. We interviewed the COTR/AOTR associated with each
obligation in the sample and discussed the continued need for each expired unliquidated
amount. We reviewed supporting documentation and information contained in the award files.
We reviewed supporting documents such as activity files, award files, quarterly accrual
documents, and internal correspondence.

We reviewed the criteria set forth in USAID’s ADS and in federal policies and procedures. We
also reviewed the Global Health Bureau’s FY 2010 certification required under the Federal
Managers’ Financial Integrity Act of 19824 and Agency financial reports for any management
control weakness related to deobligations.

We performed tests of compliance with Agency policy for the review of unliquidated obligations
related to section 1311 reviews. The team also requested the working papers that provided
documentary support for completed section 1311 reviews, which include actions taken by the
COTR/AOTR and activity managers.




4
    Public Law 97–255.


                                                                                                10
                                                                        Appendix II



MANAGEMENT COMMENTS



                                                               December 8, 2011


TO:               Acting Director IG/A/PA, Michael W. Clinebell

FROM:             Director OAA, Aman Djahanbani /s/
                  Chief Financial Officer, David Ostermeyer /s/

SUBJECT:          Audit of USAID's Unliquidated Obligations for Selected
                  Expired Awards at the Bureau for Global Health (Report
                  Number 9 -000-12-00X-P)

Thank you for the opportunity to respond to the draft audit report. The Office of
Acquisition and Assistance and Chief Financial Officer has reached a management
decision for two of the following three recommendations under the subject report.

Recommendation No. 1: We recommend that the Office of Acquisition and
Assistance determine whether the original obligations to Boston University School
of Public Health totaling $87,250 and to RTI International totaling $225,751 were
valid and closeout the awards.

Management Decision: OAA agrees with this recommendation and will close
these awards. OAA however will likely be unable to prove definitively the validity
of the obligations given the age of the awards in question, as one expired in 1995
and the other in 1992, i.e., more than 16 years ago. Accordingly, we could not
locate any physical or electronic records of the award documents. We believe
however that the internal controls in place at the time ensured only warranted
individuals could make obligations under a contract and thus it is reasonable to
assume that these obligations were valid.

Estimated Completion Date: January 30, 2012


                                                                                11
                                                                         Appendix II



Recommendation No. 2: We recommend that the Office of Acquisition and
Assistance deobligate the unliquidated obligation balances for Boston University
School of Public Health totaling $28,389 and to RTI International totaling $23,247.

Management Decision: OAA agrees with this recommendation and will de-
obligate the unliquidated obligation balances for Boston University School of
Public Health totaling $28,389 and to RTI International totaling $23,247.

Estimated completion date: January 25, 2012

Recommendation No. 3: We recommend that the Office of the Chief Financial
Officer formalize, in USAID’s Automated Directives System and related guidance,
as necessary, the Agency’s Section 1311 review policy for obligations marked for
closeout.

Management Decision: The Office of the Chief Financial Officer will prepare a
formal decision by January 30, 2012. Additional time is needed to further study
the broad issue of 1311 review policy for obligations marked for closeout and how
it will be addressed.

Estimated Completion Date: January 30, 2012




                                                                                 12
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
